                                  INTERAGENCY REVIEW




LESSONS LEARNED FROM THE
RECOVERY ACT:
AN AGENCY AND OIG RETROSPECTIVE




Report No.: RO-SP-MOI-0008-2012               May 2013
A Message From the Office of Inspector General

On behalf of the Recovery Accountability and Transparency Board (the Board),
the U.S. Department ofthe Interior's Office oflnspector General (DOl OIG) is
pleased to present this final report, entitled "Lessons Learned from the Recovery
Act: An Agency and OIG Retrospective."

The report summarizes the results of a recent review of lessons learned by Federal
agencies and OIGs during the implementation of the American Recovery and
Reinvestment Act of2009 (Recovery Act). The review, led by DOl OIG,
identified actions, processes, or mechanisms implemented by agencies, OIGs, and
the Board that either benefitted or posed challenges to their meeting the
requirements ofthe Recovery Act. Sixteen agencies, their OIGs, and the Board
staff participated in the review:

• Internal Revenue Service                 • U.S. Department of Housing and
• National Aeronautics and Space             Urban Development
  Administration                           • U.S. Department of the Interior
• National Science Foundation              • U.S. Department of Justice
• U.S. Department of Agriculture           • U.S. Department of Labor
• U.S. Department of Commerce              • U.S. Department of Transportation
• U.S. Department of Defense               • U.S. Department of Veterans Affairs
• U.S. Department ofEducation              • U.S. Environmental Protection
• U.S. Department of Health and              Agency
  Human Services                           • U.S. General Services Administration


This report is not a formal audit or evaluation. Rather, it is a capstone report
identifying the major themes highlighted by agencies and OIGs as they reflected
on their experiences during implementation.

We appreciate the opportunity to coordinate with the Board and the participating
OIGs for this important initiative. We want to thank the staffs of the participating
OIGs for their hard work and cooperation throughout this review, and we give
special thanks also to the Department of Education OIG and the Board staff for
their assistance to the DOl OIG review team.




Deputy Inspector General
Department of the Interior
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   The Recovery Act................................................................................................ 3
   Our Objective: Identifying Lessons Learned ...................................................... 4

Beneficial Practices ................................................................................................. 5
   Top-Down, Centralized Governance Structures Improved Agencies’
   Monitoring and Oversight ................................................................................... 5
   Close Collaboration Promoted Effective Implementation .................................. 6
   Unprecedented Direct Outreach to Recipients Mitigated Noncompliance in
   Reporting and Increased Fraud Awareness ......................................................... 7
   Accelerated Timeframes Led to Enhanced Business Processes and Focused
   Oversight ............................................................................................................. 9

Challenges ............................................................................................................. 11
   Agencies and OIGs Faced a Significant Learning Curve ................................. 11
   Increased Workload Taxed Agency and OIG Staffs ......................................... 12
   Condensed Timeframes Inhibited Agency Planning and Performance Metric
   Development ..................................................................................................... 13

Conclusion ............................................................................................................ 15

Appendix 1: Scope and Methodology................................................................... 16
   Scope ................................................................................................................. 16
   Methodology ..................................................................................................... 16

Appendix 2: Major Programs Covered Under This Review................................. 18
Results in Brief

The American Recovery and Reinvestment Act of 2009 (the Recovery Act, or the
Act) provided $840 billion to 28 Federal agencies to save and create jobs,
stimulate economic activity, and invest in long-term economic growth. Agencies
had just over a year and a half to award and disburse nearly all of their Recovery
Act funds to recipients, primarily through tax benefits, contracts, grants and
cooperative agreements, loans, and entitlement payments. Furthermore, they were
required to expend their funds with unparalleled levels of transparency and
accountability.

As the implementation of the Recovery Act ends, the Recovery Accountability
and Transparency Board (the Board) set out to document the lessons learned by
agencies and Offices of Inspectors General (OIGs) during their implementation
and oversight of the Act. The objective of this review was to identify those
actions, mechanisms, or processes implemented by agencies, OIGs, and the Board
that were effective in the implementation and administration of Recovery Act
programs, and those that were obstacles. On behalf of the Board, the U.S.
Department of the Interior’s (DOI) OIG compiled and analyzed data from 16
OIGs on what they and their agencies experienced while implementing Recovery
Act programs. 1 In addition, a small working group of representatives from DOI
OIG, the Department of Education OIG, and the Board conducted follow-up
interviews with six select agencies. This capstone report identifies the major
themes review participants highlighted as they reflected on their experiences
during the implementation.

Agencies, OIGs, and the Board reported several practices that aided the
implementation of the Recovery Act:

    •    Agencies credited their use of unique governance structures, including
         designated steering committees and workgroups, as contributing to the
         effective administration of the Recovery Act. These structures were often
         centralized, involved many layers of management and staff, included
         executive-level agency officials, and were actively involved throughout all
         phases of implementation.
    •    While maintaining their independent status, OIGs worked closely with
         their agencies throughout implementation of the Recovery Act to prevent
         inefficiencies, ensure compliance, and increase fraud awareness. This
         collaboration served to strengthen or reinforce working relationships
         between agencies and OIGs. The Board’s key role in coordinating efforts
         across agencies and OIGs also fostered an environment of cooperation and


1
 Oversight of the Internal Revenue Service is provided by the Treasury Inspector General for Tax
Administration. The Department of Energy issued its own Recovery Act lessons learned report and therefore
did not participate in this review (http://energy.gov/sites/prod/files/OAS-RA-12-03.pdf).


                                                                                                        1
       timely information sharing that promoted effective implementation of the
       Act.
   •   Agencies conducted extensive outreach to recipients to inform them of
       Recovery Act funding opportunities and help them during the reporting
       process. They noted having relatively low rates of noncompliance in
       reporting. In addition, OIGs and the Board engaged in numerous fraud
       awareness and prevention activities during the implementation of the Act,
       reaching tens of thousands of Federal contractors, grantees, and
       government personnel.
   •   In response to the Recovery Act’s accelerated timeframes, agencies and
       OIGs employed a variety of new business practices, or altered existing
       ones, in an effort to meet obligation deadlines and ensure timely and
       effective oversight.

In addition to these beneficial practices, there were also challenges during the
implementation:

   •   The myriad of requirements surrounding the Recovery Act’s
       implementation and reporting created a significant learning curve for
       recipients, agencies, and OIGs alike. Agencies and OIGs found it
       challenging to keep up with the evolving nature of early Office of
       Management and Budget guidance, and with the frequency and level of
       detail required for recipient and agency reporting.
   •   The Recovery Act created a dramatic spike in agency workloads. To
       address this challenge, agencies and OIGs hired new employees and used
       a number of techniques to increase staffing flexibilities—a task that was
       easier for agencies that were able to use administrative funds to help with
       implementation efforts. Nevertheless, implementing the Recovery Act
       required a level of effort from agencies that would not have been
       sustainable in the long term.
   •   Even as they recognized that the accelerated timeframe was a primary
       purpose of the Recovery Act, agencies were still challenged by the lack of
       time they had to sufficiently plan for implementation, including increasing
       staff capacity and developing improved oversight, monitoring, program
       guidance and performance measures specific to the goals of the Act.

We believe that the practices and mechanisms identified in this report, along with
other innovative, agency-specific practices, benefitted agencies and OIGs as they
implemented the Recovery Act. We hope that agencies and OIGs will continue to
apply these practices, where appropriate, to enhance the overall effectiveness with
which Federal funds are used. We also hope that the lessons agencies and OIGs
learned during the Recovery Act can be applied to the planning, implementation,
and oversight of future Government programs.




                                                                                   2
Introduction
The Recovery Act
Congress passed the American Recovery and Reinvestment Act of 2009 (the
Recovery Act, or the Act), providing $840 billion to 28 Federal agencies in order
to—

   1. preserve and create jobs and promote economic recovery;
   2. assist those entities and individuals most impacted by the recession;
   3. provide investments needed to increase economic efficiency by spurring
      technological advances in science and health;
   4. invest in transportation, environmental protection, and other infrastructure
      that will provide long-term economic benefits; and
   5. stabilize State and local government budgets in order to minimize or avoid
      reductions in essential services and counterproductive State and local tax
      increases.

Recovery Act funds were disbursed to recipients through tax benefits and
entitlement payments or awarded through contracts, grants and cooperative
agreements, and loans. In general, funds had to be obligated by September 30,
2010. Since the Recovery Act’s enactment, $787.1 billion has been paid out
(Figure 1).




                  Entitlements               $245.6B




  Contracts, Grants, and Loans                $250.8B




                  Tax Benefits                    $290.7B




  Figure 1. Overview of Recovery Act funding paid out as of March 1, 2013.
  Source: Recovery.gov

The mechanisms agencies used to award funds defined the compliance
environment for the Recovery Act. Execution of contracts is governed by the
Federal Acquisition Regulation, while grants and cooperative agreements, loans,
and entitlements have other requirements. Regardless of the mechanisms used to


                                                                                    3
distribute funds, the primary goals of the Recovery Act applied to all agencies,
and all agencies faced the monumental task of obligating funds at an
unprecedented rate.

Given the amount of funds and the speed with which they had to be obligated,
fraud and waste were of significant concern from the beginning. Funds were
allocated to Offices of Inspectors General (OIGs) to carry out oversight of
Recovery Act programs, grants, and projects. In addition, the Recovery Act
established the Recovery Accountability and Transparency Board (the Board),
which was charged with coordinating and conducting oversight of Recovery Act
funds to identify and prevent fraud, waste, and mismanagement.

Our Objective: Identifying Lessons Learned
As a capstone to the Recovery Act, the Board, in conjunction with the OIG
community, set out to identify lessons learned by Federal agencies, OIGs, and the
Board throughout implementation of the Recovery Act. The specific objective of
this review was to identify those actions, mechanisms, or processes implemented
by agencies, OIGs, and the Board that were effective in the implementation and
administration of Recovery Act programs, and those that were obstacles.

The U.S. Department of the Interior’s OIG compiled and analyzed data from 16
OIGs on what they and their agencies experienced while implementing close to
100 Recovery Act programs. 2 This report is based on this input, plus a follow-up
effort that collected additional information from the Board staff and select
agencies. Rather than a formal audit or evaluation, this report is meant to be a
capstone report identifying the crosscutting themes highlighted by a majority of
the review participants as they reflected on their experiences. Seven themes
emerged from the data: four relating to practices perceived as having been
beneficial, and three common challenges agencies and OIGs faced. See Appendix
1 for the scope and methodology we used to develop the report. Appendix 2
contains a list of the programs the agencies considered in their responses.

We hope this report will help enhance the overall effectiveness with which
Federal funds are used, and that it will also provide valuable lessons for any
future special funding that may be similar to the Recovery Act.




2
 Oversight of the Internal Revenue Service is provided by the Treasury Inspector General for Tax
Administration.


                                                                                                   4
Beneficial Practices
Top-Down, Centralized Governance Structures
Improved Agencies’ Monitoring and Oversight
All but one agency in this review reported establishing unique, often centralized,
governance structures to manage Recovery Act implementation, and they credited
these structures with improving their monitoring and oversight. Office of
Management and Budget (OMB) guidance required each agency to identify a
senior accountable official for Recovery Act activities, generally at the sub-
cabinet or Deputy Secretary level. Beyond that requirement, agencies also
reported forming a variety of cross-functional leadership teams, and in some
instances separate program offices, dedicated solely to overseeing implementation
of the Act. A number of agencies also used information management systems
such as SharePoint to centralize project tracking and report monitoring.

Steering committees, teams of experts, and workgroups were established at both
headquarters and regional levels, and often included program, acquisition, and
financial executives and managers. Committees and workgroups met frequently—
often weekly—and were actively involved throughout all phases of
implementation. Their involvement ranged from setting agency guidance,
assessing program plans, and reviewing project lists in the early stages of the
Recovery Act to tracking award statuses and project milestones and reviewing
reports in the later stages.

For example, one agency formed a multifunctional team focused on cross-
program issues such as successful recipient reporting and financial management.
The team met weekly, coordinated guidance to recipients, and established plans
and metrics to monitor the Act’s programmatic impact. Another agency created an
executive-level steering committee supported by subject-matter subcommittees,
including contracts, grants, finance, reporting, performance measurement,
outreach and communication, and congressional relations. The steering committee
established a detailed stewardship plan that aligned with OMB requirements, and
outlined management and oversight controls, guidance, training, procedures,
processes, and monitoring activities.

Agencies noted that these governance structures, with their executive-level
involvement, were a unique aspect of the Recovery Act, and they credited them
with providing more comprehensive oversight and greater transparency and
accountability for Recovery Act projects than would occur during their regular
appropriations. Most importantly, these governance structures allowed agency
officials to identify issues early and develop timely resolutions to problems.
According to the agency that developed the stewardship plan, the plan “proved a
crucial tool in identifying and correcting issues.” The agency added that aligning
the plan with OMB guidance helped the agency efficiently meet the Act’s



                                                                                     5
requirements. It is now using the development of the stewardship plan to help
design other management strategies.

Close Collaboration Promoted Effective
Implementation
The Board was established to promote accountability and foster transparency on
Recovery Act spending. It worked closely with agencies and OIGs, as well as
with State oversight officials, the National Governors Association, OMB, and the
Office of the Vice President in order to prevent fraud, waste, and
mismanagement, and to ensure the public had access to accurate information
concerning Recovery Act spending. The Board’s key role, coordinating efforts
across agencies and OIGs by facilitating cross-agency meetings, hosting inter-
OIG working groups, and sponsoring multi-agency reviews, fostered an
environment of cooperation and timely information sharing that promoted
effective implementation of the Act.

OIGs were also charged with overseeing and auditing Recovery Act programs,
grants, contracts, and projects. Apart from the coordination that takes place during
the normal course of audits or investigations, agencies and OIGs reported that
they worked together closely throughout the implementation of the Act to prevent
inefficiencies, ensure compliance, and increase fraud awareness.

Half of the OIGs in this review reported that they were more involved than usual
in agency implementation efforts, especially in the early stages. Many issued
advance reports noting challenges and areas of vulnerability for their agencies to
consider. For example, one OIG issued a series of management advisory reports
to its agency. Among other things, these reports provided observations to help
refine its agency’s risk-management approach as it began implementation,
highlighted the lack of clarity in portions of the agency’s internal guidance for
compiling project lists, and warned against doing business with individuals or
companies that had been suspended or debarred.
In addition, OIGs reviewed and commented on agency guidance, program plans,
risk management strategies, and Recovery Act projects, focusing on internal
control weaknesses and highlighting compliance risks. OIGs reported meeting
regularly with their agencies’ senior accountable officials to update them on OIG
Recovery Act activities, reviews, and investigations. Further, many agencies
actively sought OIG assistance and advice, including as advisors on steering
committees and workgroups, and requested OIG presence at management
meetings centered on Recovery Act guidance and compliance issues.
All 16 of the OIGs reported also working closely with agency staff, grantees, and
contractors to significantly increase their fraud awareness and prevention efforts.
In addition to increasing the number of fraud awareness trainings, briefings, and
workshops they presented to agency personnel, they reported developing
Webinars, videos, and brochures highlighting fraud indicators about which project
managers and procurement staff needed to be aware. In addition, many OIGs


                                                                                     6
expanded their outreach efforts beyond fraud awareness to include training and
Webinars related to internal controls, suspension and debarment, and grants and
contracts management.

Maintaining independence is a requirement for OIGs under the Inspector General
Act of 1978. Therefore, despite a high level of participation—early involvement,
membership on committees, attendance at management meetings, and regular
outreach to agency personnel—OIGs were careful to emphasize their roles as
advisors when serving in these capacities. Nevertheless, the vast majority of
agencies in this review reported that the implementation of the Act served to
strengthen or reinforce their working relationships with their OIGs.

Unprecedented Direct Outreach to Recipients
Mitigated Noncompliance in Reporting and
Increased Fraud Awareness
Agencies, OIGs, and the Board all conducted unprecedented levels of outreach to
recipients throughout implementation of the Recovery Act. Recipients included
States, corporations, small businesses, universities, nonprofit organizations, and
individual beneficiaries. Agencies and OIGs used a multitude of mechanisms to
connect with them throughout the implementation.

In the early stages of the Act, agency efforts focused on informing potential
recipients and beneficiaries on how to obtain funding and meet eligibility
requirements. In addition to posting opportunities on standard Federal Web sites
such as FedBizOpps.gov and Grants.gov, agencies relied heavily on email
communications and on posting information to their own Recovery Act Web
pages. Most agencies also communicated instructions and requirements directly to
recipients by hosting Webinars, conference calls, town hall meetings, and live
training sessions.

Once funds were awarded, outreach efforts primarily turned toward ensuring
recipients fulfilled their reporting requirements. The Recovery Act marked the
first time that entities receiving U.S. Government funds (through contracts, grants,
or loans) were required to report publicly—and in great detail—how they used
them. Section 1512 of the Recovery Act outlined the quarterly reporting
requirements for entities receiving funds (individuals were excluded) including
reporting the total amount received, project descriptions and activities funded,
project status, estimated number of jobs created or retained as a result, and
information on subcontracts and subgrants awarded. In the case of infrastructure
investments by State and local governments, reporting included the purpose of the
project, its total cost, and the rationale for funding the investment. The Board
established two Web sites: FederalReporting.gov, to capture the reported
information, and Recovery.gov, to serve as the primary public access point to all
Recovery Act data.




                                                                                  7
Because of the newness of the requirements and the systems supporting them, a
significant learning curve still existed for recipients. Therefore, in addition to
including reporting requirements in the terms and conditions of Recovery Act
awards, agencies developed a variety of useful tools for recipients, including
FAQs, toolkits, and reporting guides. Agencies also used their Web sites, as well
as emails, Webinars, training, and meetings, to communicate with recipients;
some sent reminders to recipients before quarterly reporting periods began.

Agencies provided varying levels of technical assistance during reporting periods
and followed up with recipients who were late in reporting. Most established
comprehensive recipient data quality reviews and verifications, and used that
information to better target areas where help was needed. One agency even
developed a call center to assist recipients of Recovery Act funds. The center was
open 10 hours a day, 5 days a week, and had a small fulltime staff who answered
recipients’ process- and reporting-related questions. Call center staff also called
recipients to ensure they understood reporting requirements, to check on the status
of their report submissions, and to resolve any identified data discrepancies.

All of the agencies in this review reported that their outreach efforts helped ensure
recipient reporting compliance and data accuracy, with many citing compliance
percentage rates in the high 90s. Among these agencies, the number of awards
associated with noncompliant recipients declined significantly over the past 3
years of the Recovery Act (Figure 2).

                 700

                 600

                 500
     Number of
                400
    awards with
   noncompliant
                300
     recipients
                 200

                 100

                   0
                             Q1 2010              Q1 2011             Q1 2012
                                          Recipient Report Quarter


Figure 2. Noncompliers by award for participating agencies with reported data.
Notes: The overall numbers of Recovery Act awards with noncompliant recipients for the
three quarters shown were 589, 330, and 250, respectively.
IRS Recovery Act beneficiaries were not subject to the recipient reporting requirements
spelled out in § 1512 of the Act.
Source: Recovery.gov


                                                                                          8
Finally, OIGs and the Board directly engaged recipients through fraud awareness
and prevention efforts similar to those conducted for agency personnel. All but
two of the OIGs in this review reported conducting numerous fraud awareness
training sessions, seminars, and Webinars targeting grantees and contractors, and
they estimated reaching well over 60,000 recipients during the course of the
Recovery Act. 3 Some OIGs also developed and distributed fraud awareness
materials and discussed fraud indicators with recipients during site visits and
reviews. The Board also used many other mechanisms to provide Recovery Act
information to nearly 17,000 individuals, including onsite demonstrations,
Webinars, videos, quarterly forums and meetings, and conference calls. 4

Accelerated Timeframes Led to Enhanced Business
Processes and Focused Oversight
Increased transparency requirements and the short timeframe that Recovery Act
funds were available meant agencies and OIGs had to develop new business
practices or alter existing ones in order to meet obligation deadlines and ensure
timely yet effective oversight. Agencies reported on ways they enhanced approval
processes for Recovery Act funding applications, and OIGs highlighted ways they
provided effective real-time oversight.

A vast majority of the participating agencies used their existing protocols to
review and approve recipient contract and grant applications, but many of them
also described new and innovative practices they employed to enhance the
process under the Recovery Act. Some agencies, for example—

     •    added layers to their usual reviews, ensuring that eligibility requirements
          were met and that application packages included the Act’s requirements
          and were complete before processing;
     •    established centrally coordinated grant or contract review boards
          composed of subject matter experts, grants or contracts personnel, and
          agency managers;
     •    expedited review timeframes for Recovery Act projects and developed
          tools to aid the review of recipient applications, including enhancing
          review criteria, using review checklists or templates, or applying point-
          based scoring systems for rating applications; and
     •    standardized and reformatted applications to ease processing, provided
          prepopulated fields for recipients on electronic applications, and used
          automated systems for tracking applications throughout the award process.

OIGs also enhanced their practices in order to provide timely and effective
oversight. Many used risk-based approaches to target Recovery Act projects and

3
  We did not ask the 16 OIGs that participated in this review to provide the specific number of recipients they
held training for, but 7 of the OIGs volunteered estimates. We estimate the actual number of recipients
reached through OIG fraud awareness training to be much higher.
4
  We estimate the total number of individuals trained by the Board and OIGs through January 2013 to be
almost 157,000.


                                                                                                             9
programs for review, focusing on newly established programs, high-dollar
projects, or recipients at risk for noncompliance. To assist them, the Board created
the Recovery Operations Center (ROC) to aid in the tracking of Recovery Act
funds and their recipients. Through its open-source research and in-depth fraud
analysis, the ROC has served as a centralized source of information for OIG
investigations and audits. In addition, in order to notify agencies of findings in a
timelier manner, about a third of OIGs instituted reporting in expedited forms,
such as management memoranda or advisories, rather than traditional audit
reports.




                                                                                 10
Challenges
Agencies and OIGs Faced a Significant Learning
Curve
Although the primary themes that arose from this review center on practices
credited with facilitating the Recovery Act’s implementation, agencies and OIGs
also faced challenges. For example, the myriad of requirements surrounding the
Act’s implementation and reporting created a significant learning curve.

Within the first several months after the Recovery Act was passed, OMB issued—
and often updated—several major implementing and reporting guidance
documents. Agencies and OIGs grappled with the evolving nature of this
guidance and with the frequency and comprehensiveness of the required
reporting. Agencies noted that the timing, lack of clarity, and often-changing
nature of the OMB guidance, specifically guidance related to § 1512 reporting
requirements, sometimes challenged their implementation efforts.

One primary example agencies gave concerned recipient reporting of the number
of jobs created or saved as a result of their Recovery Act work. OMB finalized
reporting guidance that established a formula for calculating jobs, but it issued the
guidance in June 2009, well after many projects had begun. In mid-December
2009, just 2 weeks before the end of the quarterly reporting period, OMB issued
additional guidance simplifying how job estimates were calculated. This guidance
changed the original formula. Consequently, agencies had to rush to educate
recipients about the changes, and spent extra time and resources that quarter
reviewing and validating recipient data to reduce errors. In some cases, agencies
communicated daily with recipients via phone or email to ensure their report
submissions were accurate.

Agencies and OIGs also experienced difficulties adapting to the quantity and level
of detail in recipient reporting necessitated by the Recovery Act’s transparency
requirements. Some general reporting is already required of most Government
contract, grant, and loan recipients, but the Recovery Act called for reporting that
was more frequent (every quarter) and more detailed (e.g., jobs created or
individual project activities).

Furthermore, using a centralized mechanism like FederalReporting.gov to capture
that information was a new process that both recipients and agencies had to learn.
A handful of agencies noted issues with the new system. Some required more
training on how to use it, and others believed the system’s “one-size-fits-all”
approach was not particularly helpful in measuring performance, or was not
applicable to all of their recipients. Several agencies suggested that if
FederalReporting.gov had allowed certain key award and identifying data fields to
be prepopulated each quarter, it would have resulted in fewer data errors for
agencies to address and eased the reporting burden on recipients.


                                                                                  11
Agencies and OIGs saw their own reporting requirements increase considerably
as well. For example, in the early months of the Recovery Act, agencies had to
provide weekly updates to OMB with a breakdown of funding, major actions
taken to date, and major planned actions regarding their implementation of the
Act. Moreover, throughout the course of implementing the Act, agencies had to
submit weekly financial reports for posting on Recovery.gov and quarterly reports
on funds disbursed to individuals (who were not subject to § 1512 reporting
requirements) for FederalReporting.gov. OIGs, in turn, were required to provide
monthly reports to the Board outlining their oversight spending, activities, and
outreach. In addition, they reported on the actions they took in response to fraud
referrals the Board provided.

Increased Workload Taxed Agency and OIG Staffs
Along with its learning curve, the Recovery Act brought a dramatic spike to
agency and OIG workloads. During our review, agencies and OIGs described
some of the resource challenges they faced, particularly inadequate staffing and
the subsequent impact on existing program operations.

With the Recovery Act’s increases in spending and related activities came a
corresponding increase in the number of staff that agencies and OIGs needed to
work effectively. For instance, despite efforts to streamline and enhance existing
review protocols, agencies still needed skilled people to review and process
applications for awards. In addition, although agencies and OIGs credited
outreach to recipients for reducing noncompliance with reporting requirements,
the amount of staffing resources it took to conduct that outreach was significant.
Agencies reported spending countless staff hours training recipients, providing
technical assistance to them, verifying and validating their data, and following up
with them when issues arose. Finally, monitoring and oversight efforts, including
site visits, reviews, and monthly reporting, also required additional staff.

To address these issues, agencies and OIGs hired new employees and used a
number of techniques to increase staffing flexibility. Some participants hired new
fulltime employees, and most brought in temporary staffing, including
contractors, term employees, or retired annuitants. Some agencies that used grant
award mechanisms reported using more reviewers from other Federal agencies as
well as non-Federal entities. One agency successfully recruited more help by
paying reviewers that had previously worked as volunteers. Agencies and OIGs
also stretched their existing capacity by using interns and employees on detail for
Recovery Act-related work, and by allowing employees dedicated to Recovery
Act projects to work overtime, receive compensatory time, or telework.

Despite efforts to maximize staff capacity, however, 10 agencies still reported that
some of their existing programs were negatively impacted by redirecting their
resources towards Recovery Act activities. In some instances, they had to extend
deadlines and prolong the implementation of existing projects. In others, they had
to place projects on hold until their Recovery Act duties subsided.



                                                                                   12
Further, some agency programs received Recovery funds to assist in the
administration of the Act, but others did not. Administrative funds proved helpful
for those agencies and programs that received them. As one agency put it: “[We]
benefitted from the ability to spend limited amounts of Recovery Act funding on
administrative and support costs. . . . [These funds] enabled bureaus to
supplement staff in key areas to support the increased workload. As a result, the
impact on regular workload was lessened.” Nevertheless, implementing the
Recovery Act required a greater commitment from current staff—a level of effort
that, as participants stated during the follow-up interviews, would not have been
sustainable in the long term.

Condensed Timeframes Inhibited Agency Planning
and Performance Metric Development
Even as the Recovery Act’s accelerated timeframe motivated agencies to enhance
processes and improve oversight, more than half still mentioned the lack of time
they had to sufficiently plan for its implementation. Agencies noted that with
more time, they would have been better able to incorporate Recovery Act
oversight and monitoring into existing systems, particularly automated and
financial tracking systems. Participants also said that having more time to recruit
and train new employees would have been beneficial. Others commented that
more lead time would have allowed for better understanding and clarification of
OMB guidance and definitions, and for the development of agency-specific
guidance.

Finally, some participants noted that, had they had more time to prepare, they
would have been able to develop more meaningful and realistic performance
measures for Recovery Act projects and overall implementation. Granted, all but
1 of the 16 agencies indicated their Recovery Act plans included performance
measures that addressed specific programmatic goals to be reached with the use of
Recovery Act funds. The same agencies also reported their Recovery Act plans
addressed at least one or more of the five specific goals of the Act. 5 But in
follow-up conversations with select agencies, we learned that the condensed
timeframe for implementation led them to rely mainly on their existing program
measures to meet the goals of the Act. The development of new performance
measures, including those specific to Recovery Act goals, was primarily focused
on those few new programs created by the Recovery Act.

We should note, however, that the Recovery Act was not particularly prescriptive
regarding the development of performance measures specifically addressing the
five goals of the Act. Furthermore, initial OMB guidance suggested a more
generalized approach to measuring Recovery Act outcomes, emphasizing the use,
where possible, of existing measures in agencies’ program-specific Recovery Act
plans. But while emphasizing the use of existing program performance measures
may have saved time and allowed agencies to continue measuring the

5
    One agency indicated the survey questions on performance measures were not applicable.


                                                                                             13
performance of their current programs, we do not know whether agencies’
existing program performance measures directly translated into metrics that could
definitively illustrate how and to what extent programs that received Recovery
Act funds succeeded in achieving the specific goals of the Act. Assessing whether
agencies attained these goals was not within the scope of this review, but it might
be asked how agencies could truly measure their success during the Recovery Act
without specific performance metrics.




                                                                                14
Conclusion
In this report, we examined the different practices and procedures that agencies,
OIGs, and the Board employed in order to contend with the major task of
awarding funds, tracking spending, and monitoring progress under one of the
largest investments the Nation has ever made in its economy.

The Recovery Act’s numerous implementation and reporting requirements meant
a significant learning curve for agencies and OIGs. Planning efforts, including the
development of meaningful performance metrics, were complicated by the
changing nature of the guidance provided and by the pressure of having to
implement the Act within a condensed timeframe.

The workload that accompanied the implementation of the Recovery Act was
significant for many agencies. The commitment and effort by agency staff to
implement the Act is evident in the large number of staff hours that were
redirected from regular activities and dedicated to Recovery Act-related work.
Agencies that were fortunate enough to receive administrative funds to aid in the
Act’s implementation found the impact to their staff and their regular programs
lessened. Overall, however, agencies noted that the strain to their existing
programs and staff, while surmountable in the short term, would not have been
sustainable in the long term without financial support.

The dual accountability and transparency mission also presented many challenges
for the newly created Board. Creating new processes and leveraging existing ones
was a significant part of the Board’s strategy, but the Board could not have
accomplished its mission without the collaborative efforts of the OIGs, the
agencies, and other stakeholders.

Ultimately, we cannot predict whether the Nation will see legislation similar to
the Recovery Act in the future. Regardless, centralized governance structures,
collaboration, outreach, streamlined processes, and effective performance
measures can benefit any large program tasked with implementing high-dollar
funding. We hope that agencies and OIGs will continue to apply these practices,
where appropriate, to enhance the overall effectiveness with which Federal funds
are used. They may be particularly beneficial in cases where one-time infusions of
significant Federal funding or large amounts of expenditures are anticipated on an
emergency or other short-term basis.




                                                                                    15
Appendix 1: Scope and Methodology
Scope
Sixteen agencies, representing approximately half of all available Recovery Act
funds, participated in this review, along with their OIGs (Figure 3). The Board
also participated in this review, and the U.S. Department of the Interior’s OIG
coordinated the overall effort.


Participating Agency                                            Available Recovery Act Funds
Internal Revenue Service*                                                              $0.2 billion
National Aeronautics and Space Administration                                            $1 billion
National Science Foundation                                                              $3 billion
U.S. Department of Agriculture                                                       $45.9 billion
U.S. Department of Commerce                                                            $6.7 billion
U.S. Department of Defense**                                                         $11.8 billion
U.S. Department of Education                                                         $97.3 billion
U.S. Department of Health and Human Services                                        $130.7 billion
U.S. Department of Housing and Urban Development                                     $13.5 billion
U.S. Department of the Interior                                                        $3.3 billion
U.S. Department of Labor                                                             $67.4 billion
U.S. Department of Justice                                                               $4 billion
U.S. Department of Transportation                                                    $47.6 billion
U.S. Department of Veterans Affairs                                                    $1.8 billion
U.S. Environmental Protection Agency                                                   $7.1 billion
U.S. General Services Administration                                                   $6.7 billion
* Funds for the Department of Treasury are approximately $20 billion. The figure listed here
pertains to the Internal Revenue Service specifically and was provided by the Treasury Inspector
General for Tax Administration.
** Includes the United States Army Corps of Engineers.
 Figure 3. Available Recovery Act funds by participating agency as of February 15, 2013.
 Source: Recovery.gov

OIGs were responsible for providing information from agency program officials
in a manner appropriate to each agency. To accommodate the different structures
and operational dynamics of each agency, and the time and resource constraints of
the participating OIGs, OIGs were given the latitude to focus on large-scale
Recovery Act programs where appropriate. In total, 96 programs are covered
under this review (Appendix 2).

Methodology
OIGs participated in this review on a volunteer basis. We developed a
questionnaire template and distributed it to the participating OIGs, which were
then responsible for collecting information from their agencies about their
Recovery Act experiences. OIGs also assessed their own monitoring and
oversight efforts. The questionnaire template was designed to collect qualitative
responses related to—



                                                                                                16
   1.   pre-award and award processes associated with Recovery Act funds;
   2.   outreach, education, and technical assistance to Recovery Act recipients;
   3.   performance measures; and
   4.   monitoring and oversight of Recovery Act activities.

Agencies and OIGs were asked to reflect on their implementation experiences;
therefore, much of the information provided is subjective. OIGs were not required
to formally validate their agencies’ responses, nor did we verify the responses
provided by participating agencies and OIGs. Responses to the questionnaire
templates were analyzed across agencies and OIGs to identify recurring themes.
Responses to each question were reviewed by two or more reviewers to ensure
consistency. In a follow-up effort, six agencies were contacted to clarify their
responses to the questionnaire. Board staff was asked to complete a modified
questionnaire.

Seven crosscutting themes emerged from the data: four relating to practices
perceived as having been beneficial, and three common challenges agencies and
OIGs faced. In discussing the themes, review participants all agreed that specific
practices or approaches should not be attributed to any particular entity. Rather,
the focus is on those practices and challenges experienced by at least a majority of
the participating agencies or OIGs, thereby representing the most common
themes.




                                                                                 17
Appendix 2: Major Programs Covered
Under This Review
To accommodate different structures and operational dynamics of each agency
and the time and resource constraints of the OIGs collecting the information,
OIGs were given the latitude to focus on large-scale Recovery Act programs
where appropriate. The table below lists the programs and agency accounts
receiving Recovery Act dollars that were included as part of this review.
References to administrative funds, salaries and expenses, and OIGs are not
included.

PROGRAMS
Internal Revenue Service
Health Insurance Tax Credit Administration
National Aeronautics and Space Administration
Science
Exploration
Aeronautics
National Science Foundation
Education and Human Resources
Major Research Equipment and Facilities Construction
Research and Related Activities
U.S. Department of Agriculture
Distance Learning, Telemedicine, and Broadband Program
Agriculture Research Service Buildings and Facilities
Rural Business Program Account
Rural Community Facilities Program Account
Rural Water and Waste Disposal Program Account
Rural Housing Insurance Fund Program Account
U.S. Department of Commerce
Census Bureau – 2010 Census
Economic Development Administration – Economic Investment
National Institute of Standards and Technology
National Oceanic and Atmospheric Administration
National Telecommunications & Information Administration
U.S. Department of Defense (DoD)
Operation and Maintenance
Military Construction
Research, Development, Test, and Evaluation



                                                                                18
PROGRAMS
DoD (cont.)
Family Housing Construction
Family Housing Operation and Maintenance
Defense Health Program
Homeowners Assistance Fund
U.S. Army Corps of Engineers (Component of DoD)


Mississippi River and Tributaries
Investigations
Construction
Operation and Maintenance
Regulatory Program
Formerly Utilized Sites Remedial Action Program
U.S. Department of Education
State Fiscal Stabilization Fund
Individuals with Disabilities Education Act Part B Special Education Grants to States
Title I Grants to Local Educational Agencies
Race to the Top (State Incentive Grants)
School Improvement Grants
U.S. Department of Health and Human Services
Health Resources and Services Administration
Indian Health Service
National Institutes of Health
Administration for Children and Families
Administration on Aging
Prevention and Wellness
Comparative Effectiveness Research
Office of the National Coordinator for Health Information and Technology
Information Technology Security
Medicare and Medicaid Health Information Technology Incentive Payments
Medicaid Federal Medical Assistance Percentage and other Medicaid Provisions
U.S. Department of Housing and Urban Development (HUD)
Community Development fund
Lead Hazard Reduction
Homelessness Prevention Fund
Home investment partnership program
Project-Based Rental Assistance Program
Public Housing Capital Fund



                                                                                        19
PROGRAMS
HUD (cont.)
Assisted Housing Stability and Energy and Green Retrofit Investment
Native American Housing Block Grant
Green Retrofit Program
U.S. Department of the Interior
Water and Related Resources
Construction
Operations
Resource Management
Surveys, Investigations, and Research
Management of Lands and Resources
Central Utah Project Completion Account
Historic Preservation Fund
Wildland Fire Management
Indian Guaranteed Loan Program Account
U.S. Department of Justice
Violence Against Women Prevention and Prosecution
State and Local Law Enforcement Assistance
Community Oriented Policing Services
U.S. Department of Labor
State Unemployment Insurance and Employment Service Operations
Community Service Employment for Older Americans
Training & Employment Services
Unemployment Insurance – Federal Additional Compensation
Unemployment Trust Fund
Job Corps
U.S. Department of Transportation
Federal Highway Administration
Federal Railroad Administration
Federal Transit Administration
Office of the Secretary – Supplemental Discretionary Grants for National Surface Transportation
    System
Federal Aviation Administration
Maritime Administration
Research and Innovative Technology Administration – Working Capital Fund, Volpe National
   Transportation Systems




                                                                                            20
PROGRAMS
U.S. Department of Veterans Affairs
Veterans Health Administration
National Cemetery Administration
Veterans Benefits Administration
Office of Information and Technology
U.S. Environmental Protection Agency
Clean Water State Revolving Fund
Drinking Water State Revolving Fund
State Clean Diesel Grant Program
Leaking Underground Storage Tank Trust Fund Program
Superfund
Brownfields
U.S. General Services Administration
Federal Buildings Fund
Vehicles
Office of Government-Wide Policy




                                                      21
